TN

OCKLE

2311 Douglas Street CA : E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga 1 B ut she contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

No. 20-1346

CALVARY CHAPEL OF BANGOR,
Petitioner,
v.
JANET T. MILLS, in her official capacity
as Governor of the State of Maine,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 5785 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 7th day of July, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

‘September 6, 2023

 

 

Affiant

aN sco Kone 9. Looe 0. a cab &. Gh

Notary Public

41039
